CERTIFICATE OF SERVICE
No. 20-1824
VINCENT LUCAS,
Petitioner,
v.
TRICIA MOORE, MARCIA PHELPS, LICKING COUNTY,
OHIO, AND THE CITY OF NEWARK, OHIO,
Respondents.
I certify that on August 7, 2021, I served three copies
of the Reply Brief on each person listed below by first
class U.S. mail, postage prepaid:
DanieLT. Downey
7775 Walton Parkway
Suite 200
New Albany, OH 43054
(614) 221-1216
Counsel for 7'ricia Moore, Marcia Phelps, Licking
County, Ohio and the City of Newark, Ohio
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on August 7, 2021

Vincent Lucas

